No. 20-843
In the

Supreme Court of the United States
NEW YORK STATE RIFLE & PISTOL
ASSOCIATION, INC., et al.,
Petitioners,
v.
KEVIN P. BRUEN, IN HIS OFFICIAL CAPACITY
AS SUPERINTENDENT OF NEW YORK
STATE POLICE, et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Second Circuit

BRIEF OF AMICI CURIAE AMERICAN
MEDICAL ASSOCIATION, MEDICAL SOCIETY
OF THE STATE OF NEW YORK, AMERICAN
ACADEMY OF PEDIATRICS, AND AMERICAN
ACADEMY OF CHILD AND ADOLESCENT
PSYCHIATRY IN SUPPORT OF RESPONDENTS

Erin G. Sutton
Leonard A. Nelson
A merican Medical
A ssociation
Office of General Counsel
330 N. Wabash Ave.
Suite 39300
Chicago, Illinois 60611
(312) 464-4801

Michael J. Dell
Counsel of Record
Chase Henry Mechanick
Kramer Levin Naftalis
& Frankel LLP
1177 Avenue of the Americas
New York, New York 10036
(212) 715-9100
mdell@kramerlevin.com

Counsel for Amici Curiae
307545

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ...................................... iii
INTEREST OF AMICI CURIAE ................................ 1
STATEMENT OF THE CASE AND SUMMARY
OF ARGUMENT ................................................. 4
ARGUMENT ............................................................... 5
I.

AMICI’S PHYSICIAN MEMBERS
HAVE FIRSTHAND KNOWLEDGE OF
THE ENORMOUS PHYSICAL,
PSYCHOLOGICAL AND SOCIAL
HARM WROUGHT BY THE FIREARM
VIOLENCE PUBLIC HEALTH CRISIS ... 5
A.

Dr. Cherisse Berry .............................. 5

B.

Dr. Amy Caggiula ................................ 7

C.

Dr. Brendan Carr ................................ 8

D.

Dr. Erick Eiting ................................... 9

E.

Dr. Alberto Esquenazi ....................... 10

F.

Dr. Stephen Hargarten ..................... 12

G.

Dr. James Rachal .............................. 13

H.

Dr. John Rozel ................................... 14

I.

Dr. Joseph Sakran ............................. 16

J.

Dr. Babak Sarani .............................. 18

K.

Dr. Layla Soliman ............................. 19

L.

Dr. Frank Tedeschi ........................... 21

M. Dr. Ricard Townsend ........................ 22
N.

Dr. Ian Wittman ................................ 23

ii
II.

NEW YORK’S CONCEALED CARRY
LAW AND ITS APPLICATION HERE
COMPLY WITH THE SECOND
AMENDMENT.......................................... 25

CONCLUSION .......................................................... 35

iii
TABLE OF AUTHORITIES
Page(s)
CASES
Ariz. State Legis. v. Ariz. Indep.
Redistricting Comm’n,
576 U.S. 787 (2015)........................................... 33
District of Columbia v. Heller,
554 U.S. 570 (2008)......................................25, 26
Gonzales v. Carhart,
550 U.S. 124 (2007)........................................... 32
Heller v. District of Columbia,
670 F.3d 1244 (D.C. Cir. 2011) ....................25, 29
Jackson v. San Francisco,
135 S. Ct. 2799 (2015)....................................... 26
Kachalsky v. Cty of Westchester, 701 F.3d 81
(2d Cir. 2012) .................................................... 31
McDonald v. Chicago,
561 U.S. 742 (2010)........................................... 26
N.Y. State Rifle & Pistol Ass’n, Inc. v.
City of N.Y.,
140 S. Ct. 1525 (2020)................................. 27 n.6
Printz v. U.S.,
521 U.S. 898 (1997)........................................... 33
Smith v. Robbins,
528 U.S. 259 (2000)........................................... 33

iv
Turner Broadcasting System, Inc. v. F.C.C.,
512 U.S. 622 (1994)........................................... 32
U.S. v. Lopez,
514 U.S. 549 (1995)........................................... 33
Voisine v. United States,
136 S. Ct. 2272 (2016)....................................... 26
Statutes
New York Penal Law § 400.00(2)(f)........4, 25, 26, 27
Other Authorities
Amy Barnhorst & John Rozel, Evaluating
threats of mass shootings in the
psychiatric setting, INTERNATIONAL
REVIEW OF PSYCHIATRY (2021),
https://www.tandfonline.com/doi/abs/10.1
080/09540261.2021.1947784 ...................... 16 n.5
Army Corps of Engineers Command
Guidance (May 14, 2018),
https://corpslakes.erdc.dren.mil/employe
es/cecwon/pdfs/18May14FirearmsPossessionGuidance.pdf .............. 34 n.9
Brian Freskos, “Guns Are Stolen in America
Up to Once Every Minute.” The Trace
(Sept. 21, 2016),
https://www.thetrace.org/2016/09/stolenguns-cars-trucks-us-atlanta/ ...................... 16 n.4

v
Centers for Disease Control and Prevention,
Fatal Injury Reports, National, Regional
and State, 1999-2019,
https://webappa.cdc.gov/sasweb/ncipc/mo
rtrate.html. ............................................27, 28, 29
David Hemenway & Deborah Azrael, The
Relative Frequency of Offensive and
Defensive Gun Uses, 15 VIOLENCE VICT.
257 (2000),
https://connect.springerpub.com/content/
sgrvv/15/3/257.abstract............................... 16 n.3
DoD Directive 5210.56 (Nov. 6, 2020),
https://www.esd.whs.mil/Portals/54/Docu
ments/DD/issuances/dodd/521056p.PDF ... 34 n.9
Ellen Knickmeyer, “Costs of the
Afghanistan war,” AP News (Aug. 17,
2021), https://apnews.com/article/middleeast-business-afghanistan43d8f53b35e80ec18c130cd683e1a38f ......... 30 n.8
Erin Grinshteyn & David Hemenway,
Violent death rates in the US compared
to those of the other high-income
countries, 2015, 123 PREVENTIVE
MEDICINE 20 (2019)..................................... 28 n.7
Eric Elbogen, et al., Beyond Mental Illness:
Targeting Stronger and More Direct
Pathways to Violence, 4 CLIN. PSYCHOL.
SCI. 747 (2016) .................................................. 32

vi
Federal Bureau of Investigation, “Active
Shooter Incidents: 20-Year Review 20002019” (May 2021)
https://www.fbi.gov/file-repository/activeshooter-incidents-20-year-review-20002019-060121.pdf/view ....................................... 30
John Rozel & Edward Mulvey, The Link
between Mental Illness and Gun Violence,
13 ANNUAL REV. CLIN. PSYCHOL. 445 (2017) ........ 31
Jonathan Metzl & Kenneth MacLeish,
Mental Illness, Mass Shootings, and the
Politics of American Firearms, 105 AM.
J. PUB. HEALTH 240 (2015) ............................... 31
Michael Siegel, The Impact of State-Level
Firearms Laws on Homocide Rates by
Race/Enthnicity (2020),
https://www.ojp.gov/pdffiles1/nij/grants/2
544669.pdf ......................................................... 28
Michael Siegel, et al., The Impact of State
Firearm Laws on Homicide and Suicide
Deaths in the USA, 1991-2016, 34 J.
GEN. INTERN. MED. 2021 (2019),
https://www.ncbi.nlm.nih.gov/pmc/article
s/PMC6816623/ ................................................. 29
Sadie Gurman & James R. Hagerty,
“Suspect in Pittsburgh Synagogue
Shooting Faces 29 Federal Charges,” The
Wall Street Journal (Oct. 27, 2018),
https://www.wsj.com/articles/pittsburghauthorities-report-active-shooter1540653056 ................................................ 15 n.2

vii
U.S. Census Bureau, “Historical Population
Change Data (1910-2020),”
https://www.census.gov/data/tables/timeseries/dec/popchange-data-text.html .......... 28-29
U.S Department of Homeland Security,
Mass Attacks In Public Spaces – 2019
(Aug. 2020),
https://www.secretservice.gov/sites/defau
lt/files/reports/2020-09/MAPS2019.pdf ............ 32

1
INTEREST OF AMICI CURIAE
The American Medical Association (“AMA”) is the
largest professional association of physicians,
residents and medical students in the United States.
Its purpose is to promote the science and art of
medicine and the betterment of public health.
Substantially all U.S. physicians, residents and
medical students are represented in its policy-making
process through state and specialty medical societies
and other physician groups seated in its House of
Delegates. AMA members practice and reside in all
50 States.1
The AMA and the Medical Society of the State of
New York represent the Litigation Center of the
American Medical Association and the State Medical
Societies. The Center is a coalition of the AMA and the
medical societies of each State and the District of
Columbia. Its purpose is to represent the views of
organized medicine in the courts. The other amici also
seek to promote public health.
Amici respectfully submit this brief to offer their
unique perspective, as healthcare providers, on the
compelling need to uphold New York’s concealed carry
law. The firearm violence that is plaguing America is
a public health crisis that amici’s members face every
day. They witness the reality, the brutal effects on our
bodies, the deaths, the grief, the suffering, and the
All parties have consented to this filing. This brief was not
authored in whole or in part by counsel for any party. No person
or entity other than amici curiae, their members, or their counsel
made a monetary contribution to the preparation or submission
of this brief.
1

2
life-long physical, psychological, social, and economic
consequences that follow survivors who can never be
made whole. The firearm violence emergencies and
trauma never end for amici’s members and other
medical professionals and staff. They devote their
lives to treating us, including in high-risk
emergencies when we are most vulnerable. We put our
lives in their hands.
We have already lost too many of our spouses and
partners, our parents, our children and our other
loved ones, friends and neighbors to gun violence.
Petitioners argue the Second Amendment should be
interpreted based on an academic debate about their
view of the mores of Seventeenth and Eighteenth
Century England and the Founding Era of our
Republic, as if those mores could show that the
Founding Fathers intended to protect the unrestricted
concealed carry of today’s vastly different handguns
that were not available hundreds of years ago and are
capable of firing high velocity rounds in our most
densely populated cities.
Petitioners’ selective
historical accounts are wrong, as Respondents and
other amici ably point out. More fundamentally,
history lessons alone cannot determine whether an
individual has a constitutional right to walk our
crowded streets with a concealed handgun without
showing proper cause.
We need to listen to the contemporary facts, learn
from the science, decline Petitioners’ proposal to
transform the Second Amendment into a mutual
destruction pact, and come together in unity to defeat
this scourge. If unrestricted concealed carry permits
had to be granted based on Petitioners’ bare

3
allegations, the floodgates would be opened to still
more injury and death.
Amici’s members understand the importance of
protecting our constitutional rights. They include
many individuals who grew up with and value the
recreational use of firearms or choose to own a firearm
for self-defense. But amici share the strong conviction,
informed by their healthcare work and research, that
New York and other States must be able to respond to
the untenable epidemic of firearm violence by
enacting and enforcing appropriate and constitutional
concealed carry laws such as the New York law
challenged here.
Amici respectfully submit this is the rare case in
which this Court’s decision will directly affect whether
countless people, including babies and infants, will
live or die. The stakes can hardly be higher.

4
STATEMENT OF THE CASE AND SUMMARY
OF ARGUMENT
The issue presented is whether New York may
enforce its reasonable licensing requirements for
individuals who wish to carry concealed handguns in
public spaces, including our streets, highways, stores,
shopping malls, movie theaters, Little League games,
hospitals, subway cars, concert halls, football
stadiums, outdoor festivals, bars, restaurants,
basketball courts, parks, political rallies, houses of
worship, and other crowded venues filled with
children and adults alike. This Court granted
certiorari to decide “[w]hether the State’s denial of
petitioners’ applications for concealed-carry licenses
for self-defense violated the Second Amendment.” The
Court should answer this question in the negative and
affirm the decision below.
Point I presents the firsthand experiences of some
of amici’s physician members who treat victims of
firearm violence. They show there is a grave public
health crisis that must be addressed by measures such
as New York’s concealed carry law.
Point II shows New York Penal Law (“NYPL”)
§ 400.00(2)(f) and its application here are completely
consistent with the Second Amendment and this
Court’s prior decisions. They further New York’s
compelling interest in curbing firearm violence. More
narrowly tailored restrictions would not be successful.
Moreover, principles of judicial deference and
federalism require that the people of New York be
given latitude to continue to implement their permit
system that works best for their needs.

5
ARGUMENT
I.

AMICI’S PHYSICIAN MEMBERS HAVE
FIRSTHAND KNOWLEDGE OF THE
ENORMOUS PHYSICAL,
PSYCHOLOGICAL AND SOCIAL HARM
WROUGHT BY THE FIREARM VIOLENCE
PUBLIC HEALTH CRISIS
A.

Dr. Cherisse Berry

Dr. Berry is Associate Medical Director of Trauma
at Bellevue Hospital Center in New York, Medical
Director of the inpatient surgery unit at NYU
Langone Health, and Associate Professor of Surgery
at the NYU Grossman School of Medicine. An
accomplished trauma surgeon, she has received
numerous awards and published 56 peer-reviewed
articles while maintaining a full-time clinical practice
at the largest level one trauma center in Manhattan.
Dr. Berry strongly supports New York’s concealed
carry law. She has seen far too many young people—
disproportionately Black men and boys—die
excruciating deaths as a result of inexplicable acts of
firearm violence. People don’t get up in the morning
with the thought that they will be shot that day. But
when different individuals are shot day after day, it is
incredibly difficult to witness so much death and to
have to communicate each one to a devastated family.
Dr. Berry has witnessed the catastrophic damage
that a single bullet can wreak on the human body.
Individuals shot in the skull generally die quickly. If
they survive, they tend to develop brain damage with
a range of permanent complications, such as an
inability to walk, eat or communicate. Some become

6
completely dependent on machines for the rest of their
lives.
If the bullet hits the spine, the victim is too often
rendered quadriplegic or paraplegic. He cannot move.
He may develop back ulcers. He is unable to urinate.
If the bullet strikes high enough, the brain may be
unable to send signals to the respiratory system.
Every breath requires the aid of a ventilator.
If an individual is shot in a limb and a nerve,
artery, or vein is hit, it may cause a loss of function
and require the amputation of the limb.
The most common gunshot wounds Dr. Berry
treats are in the chest and abdomen, where multiple
organs may be damaged. An individual shot in the
heart may die of a massive hemorrhage or cardiac
tamponade that causes so much blood to leak into the
pericardium or the sac that covers the heart, that the
heart is crushed by the pressure and cannot pump. If
a bullet hits a major artery, the victim may die before
he arrives at the hospital. If the lung is hit, blood may
fill the chest, requiring evacuation with a chest tube
or removal of the lung itself. Gunshot wounds to the
liver can also be lethal because they can cause
excessive bleeding. To control the bleeding and
prevent the patient from dying of shock, the affected
arterial blood vessels must be constricted with coils.
That can cause necrosis and require removal of part of
the liver. If a victim is hit in her intestines, she may
require an ostomy.
Some abdominal gunshot wounds cause the
patient to become so unstable that the initial
operation cannot be finished. Surgeons do what they

7
can to stop the bleeding in a damage control approach
and then send the patient—with her abdomen still
open—to the ICU, where she is further resuscitated
and warmed to prevent ongoing bleeding from trauma
induced coagulopathy. Her bowels may swell,
physically preventing closure of the abdomen; a mesh
is used to cover it. The patient needs rehabilitation for
weeks and eventually requires an abdominal wall
reconstruction.
B.

Dr. Amy Caggiula

Dr. Caggiula is an Assistant Professor of
Emergency Medicine at George Washington
University School of Medicine and the Associate
Program Director for the Emergency Medicine
Residency Program. She knows how to shoot a gun.
Dr. Caggiula was raised in a responsible, gun-owning
family in New Hampshire, where many of her
relatives lawfully keep firearms in their homes and
enjoy using them for sport or target practice. She
strongly supports New York’s limitations on carrying
concealed handguns, to stem the sort of violence she
sees almost every day as an emergency physician in
Washington, D.C.
The firearm violence in the D.C. area
disproportionately impacts young people, especially
African Americans under the age of 30. Most of their
stories are not covered in the news. People are
unaware of the extent of the carnage. In one recent
case a woman in her early 20s was shot executionstyle in her vehicle while returning from a party.
When the woman arrived in the emergency room, she
did not have a pulse. Dr. Caggiula had to inform her
family of her death. Two family members had panic

8
attacks and passed out. The woman’s death was
particularly moving for Dr. Caggiula because she was
wearing the same t-shirt as Dr. Caggiula. There but
for the grace of God could have been any of us.
The treatment of firearm violence victims takes a
mental toll on emergency room physicians and staff.
It is incredibly traumatic for trainees in particular.
Every case is difficult. It never gets easier. More
experienced physicians may become inured to the
violence over time. They do their best to avoid that.
But the hardest-hit are the patients and their
families. For their sake, and for all of us, Dr. Caggiula
believes the last thing State governments should do is
make it easier for people to carry concealed handguns
in public.
C.

Dr. Brendan Carr

Dr. Carr is a Professor and System Chair of the
Department of Emergency Medicine at the Icahn
School of Medicine at Mount Sinai in New York. He is
also a Professor in Population Health Science and
Policy. Between 2014 and 2018 he was Director of the
U.S. Department of Health and Human Services
Emergency Care Coordination Center, which oversees
the federal government’s nationwide efforts to create
patient- and community-centered emergency care
systems. He has authored more than 150 peer
reviewed publications and participated in creating
policy guidelines for many health emergencies.
Dr. Carr believes firearm violence is a public
health crisis. He has treated hundreds of patients who
have sustained gunshot wounds and delivered terrible
news to countless families. Dr. Carr vividly

9
remembers one patient, a child no older than 15, who
was shot and rendered paraplegic. Shortly after that,
the child’s older brother was shot and did not survive.
Dr. Carr remembers delivering the news to the boys’
mother. She collapsed on the floor and wept.
Dr. Carr has seen families, communities, and
front-line healthcare workers overwhelmed by the
massive human toll of firearm violence. He believes
New York has taken the right approach by regulating
the concealed carry of handguns in public.
D.

Dr. Erick Eiting

Dr. Eiting is the Vice Chair and Medical Director
of Emergency Medicine at Mount Sinai Downtown in
New York City.
Dr. Eiting regularly treats firearm violence
victims. He remembers a woman in her 90s who was
admitted to the emergency room. She was at home,
minding her own business, when a bullet flew into her
apartment, struck her lower back and exited through
her upper chest. He knew that meant it was very bad.
The bullet had ripped through multiple organs. The
woman, who had been healthy and active, desperately
wanted to live. She kept asking Dr. Eiting to help her.
He remembers holding her hand, before she died a
short time later.
The woman’s last day was just a normal day for
firearm violence. The death, injury and despair
happen all too often. Dr. Eiting finds it impossible to
understand how this has become what is expected and
accepted. He believes strongly there should not be

10
more concealed handguns on the streets and in other
public places.
E.

Dr. Alberto Esquenazi

Dr. Esquenazi is a physician specializing in
physical medicine and rehabilitation and the Chief
Medical Officer at MossRehab in Philadelphia. For
more than 35 years, Dr. Esquenazi has helped
gunshot survivors learn to live with the pain,
debilitating obstacles, and loss of control over their
lives resulting from their injuries.
The struggle of one patient Dr. Esquenazi treated
reflects the daunting challenges many face. The
young, athletic man, full of promise, happened to be
standing on a street when a shooter opened fire. He
survived, but the bullet severed vital nerves,
interrupting the transmission of signals from his
brain to his legs. He not only lost the use of his legs,
but also his control over his bowels, bladder, and
sexual functions.
When a bullet passes through the body, it can
rupture blood vessels, shatter bones, and puncture
organs. If a bullet strikes a victim’s limb, it may have
to be amputated and replaced with an artificial limb.
The brain and spinal cord are particularly vulnerable
to gunshot damage, even when the bullet does not
strike a person’s head or spine. If it pierces the lungs,
heart, or pelvic area, it will often cut open a major
artery and cause massive bleeding, blocking the
supply of blood and oxygen to the brain and causing it
to shut down.

11
A bullet that rips through the nerves in the spinal
cord can be devastating because so many of the body’s
vital functions are affected by those nerves. Any such
injury can affect a person’s ability to move his arms
and legs and to control his respiratory and bladder
muscles. These individuals must also deal with the
loss of their ability to feel physical pressure. This can
make even the simple act of sitting in a chair
dangerous. If they cannot feel the pressure as they sit,
they develop sores. If they tie their shoes too tightly,
they restrict circulation to their feet and their bodies
do not recognize the danger. Even a survivor who
retains control of his limbs may suffer from spasticity,
which causes joints to bend suddenly at extreme
angles. Victims also have to contend with brittle bones
that make any minor trauma or fall dangerous.
These
individuals
also
suffer
traumatic
disruptions to the most private and sensitive areas of
their lives. Many lose bowel and bladder control. To
urinate, they must manually insert a catheter into
their urethra four times each day for the rest of their
lives. If they don’t, the backup of the urine can lead to
kidney failure. Their sexual function is also disrupted.
For men, the loss of sensation may prevent arousal,
cause retrograde ejaculation (semen entering
backwards into the bladder), and require a urologist’s
help to express semen. Women may also be deprived
of a normal sex life.
These
painful,
disruptive
afflictions
are
emotionally devastating. Too often, the physical
trauma is compounded by depression and an inability
to build meaningful relationships. Many family
members are forced into unfamiliar caretaker roles or

12
must provide other support that is beyond their
emotional, practical, or financial means. Low-income,
Black,
and
Latino
communities
suffer
disproportionately. It is salt in the wound that these
survivors are also less likely to have access to
healthcare in the first place.
Dr. Esquenazi knows the devastation wrought by
firearm violence is a problem that can be solved. He
believes States should not be prevented from taking
reasonable steps to reduce firearm violence. He
opposes efforts to allow even more people to wield
concealed handguns in public.
F.

Dr. Stephen Hargarten

Dr. Hargarten is the Founding Director of the
Comprehensive Injury Center at the Medical College
of Wisconsin, where he is a Professor of Emergency
Medicine and has served as Director of the Firearm
Injury Center. As one of the nation’s most experienced
and accomplished professionals in the field of firearm
injury prevention, he believes there is no question
that more concealed handguns on the streets will lead
to the unacceptable consequence of more injuries and
deaths.
Dr. Hargarten’s career dates back to the 1980s
when he worked at Milwaukee’s only level one trauma
center. In August 2012, he was the primary
emergency physician to treat individuals injured in
the mass shooting at a Sikh temple in Oak Creek,
Wisconsin. Wisconsin is a shall-issue concealed carry
state. Wade Michael Page, the shooter, was able to
pass a background check and legally purchase the

13
9mm Springfield XD(M) semi-automatic pistol he
used to murder six people and injure the others.
It is not only intentional homicides that worry
Dr. Hargarten. He is also concerned that the presence
of more firearms in public will result in unintentional
and accidental discharges, even by lawful owners.
Some weapons have design flaws, such as older singleaction revolvers that can discharge if dropped and the
hammer is hit. Good people can get drunk, feel
provoked, experience despair, or act impulsively. They
can hit bystanders. The presence of concealed
handguns in public can jeopardize the health and
safety of anyone nearby.
Firearm violence is gruesome. Bullets stretch and
rip cavities inside the body. Typical shooting victims
can lose three to five liters of blood before they are
admitted to the emergency room. If they survive, they
may be left with spinal cord injuries or confined to a
wheelchair. And there are cascading effects: overactivation of stress hormones, long-term psychological
trauma for the victim and family members, and
crippling medical expenses. To protect the public’s
health, Dr. Hargarten strongly supports laws that
limit the presence of concealed handguns in public
places.
G.

Dr. James Rachal

Dr. Rachal is a psychiatrist and Charlotte Regional
Chairman of the Department of Psychiatry at Atrium
Health. He served as a Major in the U.S. Air Force, at
Andrews Air Force Base in Maryland, Walter Reed
Army Medical Center in Washington, D.C., and Camp
Arifjan, Kuwait, where he was Medical Director for

14
Mental Health Services and Officer-in-Charge of the
Combat Operations Stress Team. Dr. Rachal received
the Air Force Meritorious Service Medal for
outstanding leadership and clinical work and other
Air Force medals.
Dr. Rachal strongly believes that concealed carry
licenses should be narrowly restricted. He has seen
the awful effects of firearm violence, treating
countless survivors who developed PTSD or
behavioral health illnesses due to firearm-related
trauma. Approximately 50-60% of his male patients
have experienced or witnessed firearm violence.
Dr. Rachal has also seen that good people can act
impulsively or emotionally in difficult situations. If a
handgun is easily available it can be used to terrible
effect. People turn firearms on themselves, family
members and strangers.
Background checks on firearm purchasers are
important but can still allow dangerous people to fall
through the cracks. When Dr. Rachal worked at
Walter Reed, one of his acquaintances was Nidal
Hasan, an army psychiatrist. On November 5, 2009,
Hasan used an FN Five-seven semi-automatic pistol
he purchased legally in Killeen, Texas to kill and
injure dozens of people at Ford Hood. Dr. Rachal was
horrified by the attack and by how easy it was for
Hasan, a very troubled member of the military, to
lawfully gain access to a firearm.
H.

Dr. John Rozel

Dr. Rozel is an Associate Professor of Psychiatry,
Adjunct Professor of Law, and faculty member at the

15
Center for Bioethics and Health Law at the University
of Pittsburgh. He teaches and consults on emergency
psychiatry and violence prevention. He has published
extensively on firearm violence causes and
prevention. Dr. Rozel runs a crisis center in a highgun-crime area less than a mile from a 2016 massshooting in which five people were killed, including a
pregnant woman in her third trimester. He helps
train mental health and law enforcement
professionals to identify people at risk for violence and
to collaborate across disciplines to prevent serious
acts of violence. He has experience responding to
mass-casualty events, including the October 27, 2018
mass shooting at the Tree of Life synagogue in
Pittsburgh by Robert Bowers, who had a concealed
carry license.2
Dr. Rozel believes concealed carry permits should
be tightly regulated. He holds a concealed carry
license in Pennsylvania. It was issued in a matter of
minutes, without a call to either of his references and
without any verification of need or competence with a
firearm. Dr. Rozel’s research and experience refute
the assertion that greater firearm availability will
improve public safety. The wide availability of
firearms outside the home can create dangerous
situations. Firearms may negligently discharge. They
may be used to criminally intimidate or threaten
others (even when the owner alleges it was lawful

Sadie Gurman & James Hagerty, “Suspect in Pittsburgh
Synagogue Shooting Faces 29 Federal Charges,” The Wall Street
Journal (Oct. 27, 2018), https://www.wsj.com/articles/pittsburghauthorities-report-active-shooter-1540653056.
2

16
use).3 They may be lost or stolen. One survey of 25
large cities found 4,800 firearms were reported stolen
from vehicles in a single year.4 Moreover, there are
numerous risk factors for firearm violence that are
difficult to screen for and which may not show up in a
background check, such as difficulty controlling
anger, problematic substance use, and hatred of
others based on gender, race, religion, or similar
attributes.5
I.

Dr. Joseph Sakran

Dr. Sakran is Director of Emergency General
Surgery and Associate Chief of the Division of Acute
Care Surgery at The Johns Hopkins Hospital, and an
Associate Professor of Surgery and Nursing at The
Johns Hopkins University School of Medicine.
Firearm violence is personal for Dr. Sakran. A
Virginia area native, he had a brush with death at the
age of 17. After attending the first high school football
game of the season, he was spending time with
friends. An altercation broke out at a nearby park. A
stranger fired a gun. The 38-caliber bullet struck Dr.
David Hemenway & Deborah Azrael, The Relative Frequency of
Offensive and Defensive Gun Uses, 15 VIOLENCE VICT. 257–272
(2000),
https://connect.springerpub.com/content/sgrvv/15/3/257.abstract.
4 Brian Freskos, “Guns Are Stolen in America Up to Once Every
Minute.”
The
Trace
(Sept.
21,
2016),
https://www.thetrace.org/2016/09/stolen-guns-cars-trucks-usatlanta/.
5 Amy Barnhorst & John Rozel, Evaluating threats of mass
shootings in the psychiatric setting, INTERNATIONAL REVIEW OF
PSYCHIATRY
(2021),
https://www.tandfonline.com/doi/abs/10.1080/09540261.2021.19
47784.
3

17
Sakran’s throat, rupturing his trachea and injuring
his vocal cord and carotid artery. He was critically
injured, spending weeks in the hospital. He had a
tracheostomy for over six months, and numerous
surgeries during his senior year of high school. To this
day, his voice is still raspy as a result of his injury. But
Dr. Sakran survived. Too many are not so lucky.
From tragedy, Dr. Sakran found inspiration: he
resolved to become a trauma surgeon like the ones
who saved his life. He knows that what happened to
him could happen to anyone’s child in the Virginia
area, or anywhere in the country. He has seen
hundreds of people slaughtered on the streets of
Baltimore. A disproportionate number are young
Black men. Many arrive without a pulse, bleeding to
death, or die from their numerous injuries. In
addition, over the past decade, we have seen an
increase in the number of mass shootings that result
in significant injury and death.
The widespread access to firearms also contributes
to suicide. Suicide is generally an impulsive act.
Research shows that 71% of suicide attempts occur
within an hour after the decision has been made. Most
people who survive do not go on to die from a second
attempt, and in fact lead relatively productive lives.
But those who use a firearm as a method of suicide
rarely have that second chance, due to the high case
fatality rate.
Dr. Sakran believes the best medical treatment is
prevention. Common sense measures to protect the
community, like New York’s concealed carry law, are
absolutely necessary.

18
J.

Dr. Babak Sarani

Dr. Sarani is a Professor of Surgery and
Emergency Medicine at George Washington
University School of Medicine and the director of
Trauma and Acute Care Surgery at The GW Medical
Faculty Associates. He treats firearm violence
victims. He also conducts research, and has published
extensively concerning mass shootings.
More than 95% of the gunshot victims he treats
were shot with handguns. When people have the
means to act lethally on impulse, the chances of injury
and death increase exponentially. Many shootings,
including suicides, are due to an impulsive act or
perceived disrespect. The victims of self-inflicted
gunshot wounds tend to be older white men in their
40s or 50s in suburban or rural areas. The others are
disproportionately African American men and boys
between the ages of 14 and 25 in cities. Many of
Dr. Sarani’s patients were simply bystanders caught
in the crossfire. Many were shot on their own porches
for no reason.
Tragically, Dr. Sarani has seen countless patients
die on the operating table. The most painful part of his
job is informing families that their loved ones have
bled to death and he could not save them. When the
patients survive, they generally bear long-lasting
physical and mental consequences.
Also tragically, Dr. Sarani never even has an
opportunity to try to save 50-60% of the individuals
who have been shot, principally those shot in the head
or the chest. They die at the scene.

19
Dr. Sarani has found in his research that when
handguns, generally semi-automatic, are used in
mass shootings there tend to be more deaths than
when an assault rifle is used. Individuals with
concealed handguns have an opportunity to get far
closer to their victims and then to shoot more bullets
into them before the victims can try to flee.
K.

Dr. Layla Soliman

Dr. Soliman is an inpatient psychiatrist at Atrium
Health in Charlotte, North Carolina. She has also
worked in outpatient and crisis settings. She regularly
treats individuals who have been shot, witnessed a
shooting, or lost a loved one to firearm violence. A
grandmother came for crisis stabilization after her
toddler grandchild found his father’s gun hidden in his
boot, then shot himself. The devasted grandmother
carried the dead child’s toy soldier with her. The
memory still haunts Dr. Soliman, years later, as she
recalls feeling helpless in the face of such tragedy.
Firearm violence is a significant cause of trauma.
It can take witnesses and survivors years to begin to
recover from post-traumatic stress disorder and
related symptoms.
Dr. Soliman has personal experience using
firearms and is not anti-gun. She supports restrictions
on concealed carry licenses to help prevent firearmrelated deaths and injuries. Dr. Soliman regularly
assesses the risk that individuals will engage in
violence. She has seen people come to clinical
attention after seeking access to firearms for
“protection.” They often present in ways that appear
“normal” to the untrained eye, but harbor paranoid

20
delusions (such as believing they are being stalked or
surveilled). Such individuals could be extremely
dangerous if they obtain a handgun. Psychoses can be
very subtle.
Moreover, individuals who are now healthy and
lawfully obtain firearms can later develop severe
psychoses, suffer depression, react to stressful
external events in a violent manner, or have their
weapons stolen or misused by others. For example,
Dr. Soliman treated a legal firearm owner who passed
a background check before developing a drug problem
and suffering a psychotic break that culminated with
her firing her weapon into an apartment.
When a child or other loved one dies in a senseless,
random act of violence, many family members have
homicidal ideations about getting revenge. They can
too easily act on those impulses if a firearm is
available.
The average age at which current and past gun
owners say they acquired their first firearm is 22,
which is within the age range when serious, persistent
mental illness typically emerges. It is important not
to stigmatize mental illness and to note that the vast
majority of violence is not attributable to mental
illness. Still, such individuals can be at an elevated
risk of violence. Even in the absence of such illness,
suicide and homicide are two of the three leading
causes of death in the 15-24-year-old age group.
Handguns are frequently used in both.

21
L.

Dr. Frank Tedeschi

Dr. Tedeschi is a child and adolescent psychiatrist
at NYU Langone Health and Clinical Assistant
Professor of Child and Adolescent Psychiatry at NYU
Grossman School of Medicine. Every day, he sees
children and teenagers who have been shot, witnessed
a shooting, or lost a parent, sibling, classmate, friend
or someone in the community to firearm violence. This
traumatizes them. Dr. Tedeschi has seen firearm
violence become shockingly normalized to young
people.
Many parents do their best to shelter their
children. But when the children see and hear about
shootings in their communities, many grow up
believing the world is a dark and frightening place
where violence lurks around every corner. The effect
on young, developing minds cannot be overstated. Dr.
Tedeschi has seen children scarred in ways that no
child should be. They develop symptoms of PTSD
similar to many combat veterans, with nightmares,
flashbacks and severe anxiety. They often carry these
symptoms well into adulthood. If they see danger at
every turn, it affects their ability to process emotions
and relate to others. They often respond by engaging
in hostile, aggressive, or even criminal behavior.
It is even worse when a parent or family member
is lost to firearm violence. Children need emotional
support. They need to feel the world is a safe place
they can trust. When they are deprived of their
support systems by firearm violence, they can lose the
ability to build healthy relationships with others.
They may be left with the feeling they must fend for
themselves. It can lead them down a path of aberrant

22
development that only alienates them further from
the remaining positive relationships in their lives.
This places them at a greater risk of involvement in
the criminal justice system, recidivism, and the
development of antisocial personality disorder.
M.

Dr. Ricard Townsend

Dr. Townsend, a trauma surgeon, has treated 300
to 400 penetrating gunshot wound victims annually
since the early 1980s, in California and Pennsylvania.
He volunteered for the U.S. Army Reserve after
September 11. As a Lieutenant Colonel, he treated
gunshot victims during multiple tours in Iraq and
Afghanistan. For months at a time, Dr. Townsend
tended soldiers injured on the battlefield and then
returned home to treat large numbers of the
Americans who are shot by rapid-fire, semi-automatic
handguns in our own cities. He teaches military
expeditionary surgeons at Walter Reed Hospital
based on his experience treating civilians shot on the
streets of this country.
Dr. Townsend has treated bullet wounds in every
part of the body. Most victims need major operations.
A single bullet entering the body at 1,000 to 3,000 feet
per second can bounce off the ribs and pelvis and rip
apart multiple organs and tissues. One of the most
important factors that determines whether a victim
lives or dies is where she has been shot. A shooter
wielding a concealed handgun—who is able to get
close enough to shoot his victim in the head or chest—
is far more likely to kill than one who uses a more
powerful AR-15 rifle but misses vital organs.

23
Dr. Townsend remembers a young boy who was
shot in the upper abdomen—referred to as the
“surgical soul” because there are so many organs that
can be torn apart. In a flash, the boy went into cardiac
arrest and died. Dr. Townsend delivered this awful
news to the boy’s father, who was furious at
Dr. Townsend because he could not save the boy’s life.
Dr. Townsend was grateful the father was not armed.
All too often next of kin react with impulsive
vengeance after losing a family member to firearm
violence.
Dr. Townsend’s ancestor, a colonial militiaman,
was killed by British soldiers at the battle of
Lexington and Concord in 1775. Back then,
militiamen used simple flint-lock weapons. Today,
easily-available handguns can fire twenty rounds in a
few seconds. Victims are far more likely to be shot in
multiple places and suffer blood loss trauma. If major
blood vessels are ruptured, victims can bleed to death
in minutes, before first responders even arrive.
Dr. Townsend has owned firearms and respects
the Second Amendment. He believes it should not be
found to prohibit reasonable gun regulation, including
New York’s limitations on carrying a concealed
handgun.
N.

Dr. Ian Wittman

Dr. Wittman is Chief of Emergency Medicine at
NYU Langone Hospital–Brooklyn and Co-Chair of
NYU Langone Health’s Emergency Management
Committee.

24
Dr. Wittman has seen the devastating effects of
firearm violence. Gunshots at close range are more
likely to cause death. It is the lethality that attracts
people to guns. Wounds to the head and neck are
frequently fatal. If not, they may render their victim
paralyzed, brain-damaged, or unable to breathe on his
own. Chest and abdomen wounds can cause rapid
death if the victim is not operated on quickly. Victims
lose a significant volume of blood and their liver,
intestines, or lungs may have to be removed. Even if a
victim survives the gunshot, the surgeries pose risks:
chronic pain, anesthesia complications, infection,
adverse reactions to medication or blood transfusions,
and dehiscence—wounds splitting and bursting back
open.
Dr. Wittman has observed that shootings are often
associated with alcohol and drug use, which affect a
person’s judgment. When an intoxicated person has a
firearm, people too often get shot.
When Dr. Wittman was a trainee in Houston,
Texas, he saw an extremely high number of shooting
victims. He sees fewer in New York, but there is still
a hideous amount of firearm violence. Dr. Wittman
treats patients with gunshot wounds regularly. In one
case, a college student no older than 20 was shot in
the head at point blank range after answering his
front door. The shooter, carrying a concealed weapon,
was able to walk past the doorman and others who did
not know he was armed. In another, a disgruntled exemployee pulled a concealed firearm out of his jacket
and murdered his former coworker on the street
outside the Empire State Building. The police
responded, but their aim was defective and they

25
mistakenly shot a number of bystanders. Some
required emergency operations to survive.
Dr. Wittman believes firearm violence tragedies
would become more frequent if New York’s
requirements for a concealed carry permit were
relaxed. He finds it incomprehensible that anyone
would be allowed to bring a deadly firearm into a bar
or movie theater without a special need to do so.
II.

NEW YORK’S CONCEALED CARRY LAW
AND ITS APPLICATION HERE COMPLY
WITH THE SECOND AMENDMENT

1. Petitioners argue this Court’s precedents
preclude New York from enforcing its concealed carry
law here. Not so.
In District of Columbia v. Heller, this Court
disclaimed any intention “to cast doubt” on
“longstanding”
and
“presumptively
lawful”
regulations of firearms, and provided a nonexhaustive list of such measures. 554 U.S. 570, 62627 & n.26 (2008).
NYPL § 400.00(2)(f) is just such a “longstanding”
regulation. “[T]he majority of the 19th-century courts
to consider the question held that prohibitions on
carrying concealed weapons were lawful under the
Second Amendment or state analogues.” Heller, 554
U.S. at 626. As then-Judge Kavanaugh emphasized,
“Heller affirmatively approved . . . concealed-carry
laws.” Heller v. District of Columbia, 670 F.3d 1244,
1278 (D.C. Cir. 2011) (Kavanaugh, J. dissenting)
(emphasis in original). Justice Thomas has explained
that even a law that completely prohibits concealed

26
carry, unlike the NYPL, would be a “narrow
limitation[]” that would not “prohibit” anyone “from
generally exercising his right to bear arms”:
Traditionally, States have imposed narrow
limitations on an individual’s exercise of his
right to keep and bear arms, such as
prohibiting the carrying of weapons in a
concealed manner or in sensitive locations, such
as government buildings. But these narrow
restrictions neither prohibit nor broadly
frustrate any individual from generally
exercising his right to bear arms.
Voisine v. U.S., 136 S. Ct. 2272, 2291 (2016) (THOMAS,
J., dissenting) (emphasis added; citations omitted).
Section 400.00(2)(f) is nothing like the “absolute
ban on handguns” Heller struck down. 554 U.S. at 628,
632. New York’s law does not ban concealed carry, let
alone “totally ban[]” handguns. Id. at 628. The two
individual Petitioners concede New York granted
them concealed carry licenses for certain purposes.
See Pet. App. 7.
Moreover, Heller addressed the core Second
Amendment “right of law-abiding, responsible citizens
to use arms in defense of hearth and home” “where the
need for defense of self, family, and property is most
acute.” 554 U.S. at 635, 628. That was the “central
holding in Heller.” McDonald v. Chicago, 561 U.S.
742, 780 (2010); see also Jackson v. San Francisco, 135
S. Ct. 2799, 2800-01 (2015) (THOMAS, J., dissenting)
(“[T]he core of the Second Amendment right” is selfdefense “in the home,” where people are “most

27
vulnerable—when they are sleeping, bathing,
changing clothes, or otherwise indisposed”).6
The NYPL respects this “core” right. It allows any
eligible applicant to obtain a license to use a handgun
within the home without a showing of “proper cause.”
See § 400.00(2)(a). Section 400.00(2)(f) imposes
additional license requirements only when an
applicant seeks to bring a concealed handgun into a
public space.
2. Amici join Respondents’ argument that no
more than intermediate scrutiny should apply here.
But, even if strict scrutiny were applied, the decision
below should be affirmed.
Firearm violence is a public health crisis.
Petitioners do not dispute that New York has an
important—even compelling—interest in stemming
the violence. From 2010 to 2019, firearm-related
deaths were the third leading cause of U.S. injuryrelated deaths. More than 358,000 Americans died
from firearm-related injuries, including more than
126,000 homicide victims. Firearm violence killed
more than 14,000 children under the age of 18,
including 885 under the age of five. See CDC, Fatal
In N.Y. State Rifle & Pistol Ass’n, Inc. v. City of N.Y., Justice
Alito, joined by Justices Thomas and Gorsuch, opined that the
Second Amendment also protects certain rights “concomitant of
the same right recognized in Heller.” 140 S. Ct. 1525, 1541 (2020)
(ALITO, J., dissenting). Such “concomitant” rights, according to
the three Justices, may include the right to take a gun outside
the home for maintenance, repair, lawful transfer of ownership,
or use at a gun range. See id. Here, Petitioners have never
contended that any such rights were impaired by the limitations
on their concealed carry permits.
6

28
Injury Reports, 1999-2019 [“Fatal Injury Reports”],
available
at
https://webappa.cdc.gov/sasweb/ncipc/mortrate.html.
Minority communities suffer disproportionately. See
Michael Siegel, The Impact of State-Level Firearms
Laws on Homicide Rates by Race/Ethnicity 1 (2020),
https://www.ojp.gov/pdffiles1/nij/grants/254669.pdf.7
In New York, between 2010 and 2019, 8,869 people
died of firearm-related injuries, including 3,973
homicides. See Fatal Injury Reports, supra. That
strongly underscores New York’s compelling need for
its licensing law.
3. Petitioners argue the New York law is too
restrictive. But the data shows a less restrictive
system—such as a shall-issue regime requiring no
more than a basic background check—would not be
nearly as successful in advancing New York’s
compelling interest in reducing firearm violence.
New York has a lower rate of fatal firearm violence
than many other States. During the last decade, New
York had 6.28% of the population of the fifty States
and the District of Columbia (based on the 2010
census), see U.S. Census Bureau, “Historical
Population
Change
Data
(1910-2020),”
In 2015, the firearm homicide rate in the U.S. was 4.1 per
100,000 population. In contrast, the rate in the U.K., whose
purported centuries-old mores Petitioners so heavily rely on, was
zero. See Erin Grinshteyn & David Hemenway, Violent death
rates in the US compared to those of the other high-income
countries, 2015, 123 PREVENTIVE MEDICINE 20–26 (2019). 91.6%
of the women, 82.5% of the men and 96.7% of the children aged
0-4 years killed by guns in high-income countries were from the
U.S. See id.
7

29
https://www.census.gov/data/tables/timeseries/dec/popchange-data-text.html, but 3.15% of
firearm-related homicides in these States and the
District of Columbia. See Fatal Injury Reports, supra.
New York’s approach is working. The Court should
not prevent it from continuing to work.
The New York data is consistent with a significant
and growing body of research that shows may-issue
States (where licenses and their scope are
discretionary) have lower rates of firearm-related
homicides than shall-issue States (where licenses are
issued to all who qualify). One study found shall-issue
States had a 15% higher firearm homicide rate.
Michael Siegel et al., The Impact of State Firearm
Laws on Homicide and Suicide Deaths in the USA,
1991-2016, 34 J. GEN. INTERN. MED. 2021-2028 (2019),
https://www.ncbi.nlm.nih.gov/pmc/articles/PMC6816
623/, Online Supplemental Table S3. Other research
confirms that restricting public carry reduces fatal
firearm violence. See Respondents’ Br. at 44; Amici
Curiae Social Scientists and Public Health
Researchers’ Br.; see also Heller, 670 F.3d at 1286
(Kavanaugh, J., dissenting) (“[S]emi-automatic
handguns are more dangerous as a class than semiautomatic rifles because handguns can be
concealed.”).
May-issue laws saved thousands of lives and
avoided thousands of family tragedies. Had the eight
States, including New York, that have may-issue laws
and “proper cause” or “good cause” requirements to
carry in public been compelled to switch to shall-issue
regimes, the 15% higher firearm homicide rate would
have meant approximately 3,793 additional

30
individuals in those States — men, women, infants
and babies — would have been killed by firearm
violence between 2010 and 2019. That is more than
the number of U.S. service members killed in
Afghanistan during the entire war.8 And countless
others would have been maimed, injured, and
mentally and physically scarred.
Moreover, successful defensive firearm use in
active shooter situations by people other than trained
law enforcement officers is extremely rare. Only four
of the 345 active shooters catalogued by the FBI over
a 20-year period were stopped by a good guy with a
gun. See Federal Bureau of Investigation, “Active
Shooter Incidents: 20-Year Review 2000-2019,” at 4
(May 2021), https://www.fbi.gov/file-repository/activeshooter-incidents-20-year-review-2000-2019060121.pdf/view.
4. Even if there were room for disagreement as
to the studies showing stricter concealed carry laws
work (and there is not), important principles of
judicial deference and federalism would weigh heavily
in favor of allowing New York to enforce its licensing
law.
“[A]ssessing the risks and benefits of handgun
possession and shaping a licensing scheme to
maximize the competing public-policy objectives, as
New York did, is precisely the type of discretionary
judgment that officials in the legislative and executive
Ellen Knickmeyer, “Costs of the Afghanistan war,” AP News
(Aug.
17,
2021),
https://apnews.com/article/middle-eastbusiness-afghanistan-43d8f53b35e80ec18c130cd683e1a38f.
8

31
branches of state government regularly make.”
Kachalsky v. Cty of Westchester, 701 F.3d 81, 99 (2d
Cir. 2012). New York acted to address an increase in
homicides and suicides by shooting. Id. at 84. That is
an important and compelling government interest,
and the New York law is substantially related and
narrowly tailored to it. The “proper cause”
requirement and the limitations on the scope of
licenses represent an appropriate balancing of risks to
accomplish that objective. The risk factors that
indicate a person may commit firearm violence are
numerous, often subtle, as many of the physicians
explain in Part I, and may be difficult to uncover
through screening.
Petitioners point to New York’s requirement that
license applicants disclose whether they have suffered
any mental health illness, and its prohibition on
issuing licenses to those who have been involuntarily
committed. But New York cannot stop firearm
violence merely by screening applicants for mental
illness. The vast majority of gun violence is not
attributable to people with mental illness. See John
Rozel & Edward Mulvey, The Link between Mental
Illness and Gun Violence, 13 ANNUAL REV. CLIN.
PSYCHOL. 445–469 (2017). Research shows the
mentally ill account for less than 5% of firearmrelated crimes or firearm-related homicides. See
Jonathan Metzl & Kenneth MacLeish, Mental Illness,
Mass Shootings, and the Politics of American
Firearms, 105 AM. J. PUB. HEALTH 240-249 (2015).
Individuals may commit acts of violence due to
family circumstances, domestic strife, divorce,
financial distress, excessive alcohol, controlled

32
substance abuse, drugs, difficulty controlling anger,
hatred of others based on race, gender, religion,
national origin or other attributes, personal tragedy,
past victimization, despair and a host of other factors
that can affect any of us and that licensing authorities
cannot be expected to determine or anticipate. See
Eric Elbogen, et al., Beyond Mental Illness: Targeting
Stronger and More Direct Pathways to Violence, 4
CLIN. PSYCHOL. SCI. 747-759 (2016). Nearly a third of
mass-casualty attack perpetrators in 2019 “were
retaliating for perceived wrongs related to specific
issues in their lives … such as an ongoing feud with
neighbors, being kicked out of a retail establishment,
being teased or bullied, facing an impending eviction,
or being angered and frustrated about college debt
and job prospects.” U.S. Department of Homeland
Security, Mass Attacks In Public Spaces – 2019, at 11
(Aug.
2020),
https://www.secretservice.gov/sites/default/files/repor
ts/2020-09/MAPS2019.pdf. Moreover, individuals may
present as normal and healthy on paper, and may
even be able to talk their way out of psychiatric
interventions, while subject to paranoid delusions
that make them a danger to others.
This “Court has given state and federal
legislatures wide discretion to pass legislation in
areas where there is medical and scientific
uncertainty.” Gonzales v. Carhart, 550 U.S. 124, 163
(2007) (collecting cases). “Sound policymaking often
requires legislators to forecast future events and to
anticipate the likely impact of these events based on
deductions and inferences for which complete
empirical support may be unavailable.” Turner
Broadcasting v. F.C.C., 512 U.S. 622, 665 (1994).

33
Moreover, this Court has long extolled the wisdom
of our federalist system. “Deference to state
lawmaking ‘allows local policies “more sensitive to the
diverse needs of a heterogenous society,” permits
“innovation and experimentation,” enables greater
citizen “involvement in democratic processes,” and
makes government “more responsive by putting the
States in competition for a mobile citizenry.”” Ariz.
State Legis. v. Ariz. Indep. Redistricting Comm’n, 576
U.S. 787, 818 (2015) (quoting Bond v. U.S., 564 U.S.
211, 221 (2011)). This Court tries “to avoid imposing a
single solution on the States from the top down.”
Smith v. Robbins, 528 U.S. 259 (2000). What works in
Montana may not work on the crowded streets of New
York.
Some of this Court’s most important federalism
decisions have addressed the right of States to craft
their own firearm-violence control policies. See Printz
v. U.S., 521 U.S. 898 (1997); U.S. v. Lopez, 514 U.S.
549 (1995). Justice Kennedy explained:
States may perform their role as laboratories
for experimentation to devise various solutions
where the best solution is far from clear. … If a
State or municipality determines that harsh
criminal sanctions are necessary and wise to
deter students from carrying guns on school
premises, the reserved powers of the States are
sufficient to enact those measures.
Id. at 581 (Kennedy, J., concurring). Here, too, the
people of New York should be allowed to decide that
their permitting law is the “best solution.”

34
New York is among at least eight States that have
“may-issue” laws with proper cause requirements.
Together these heavily urbanized States have
approximately 25% of the U.S. population.9 This Court
should not cut short the opportunity for debate and
experimentation concerning concealed carry laws by
imposing a one-size-fits-all solution.

The Department of Defense also has a may issue directive and
the Army Corps of Engineers grants the District Commander
“discretion” whether to permit individuals to carry a firearm at
certain sites. See DoD Directive 5210.56 (Nov. 6, 2020),
https://www.esd.whs.mil/Portals/54/Documents/DD/issuances/do
dd/521056p.PDF, § 4.2; Army Corps of Engineers Command
Guidance
(May
14,
2018),
https://corpslakes.erdc.dren.mil/employees/cecwon/pdfs/18May1
4-FirearmsPossessionGuidance.pdf.
9

35
CONCLUSION
The judgment below should be affirmed.
September 21, 2021
Respectfully submitted,
ERIN G. SUTTON
LEONARD A. NELSON
AMERICAN MEDICAL
ASSOCIATION
Office of General Counsel
330 N. Wabash Ave.
Suite 39300
Chicago, Illinois 60611
(312) 464-4801
Erin.sutton@ama-assn.org

MICHAEL J. DELL
Counsel of Record
CHASE HENRY MECHANICK
KRAMER LEVIN NAFTALIS
& FRANKEL LLP
1177 Avenue of the
Americas
New York, NY 10036
(212) 715-9100
mdell@kramerlevin.com

Counsel for Amici Curiae American Medical
Association, Medical Society of the State of New York,
American Academy of Pediatrics, and American
Academy of Child and Adolescent Psychiatry

